No. 21-219

Jfn tbe ~upreme <!Court of tbe mntteb ~tates
CLEAR, CHANNEL OUTDOOR, LLC v. HENRY J. RAYMOND
AFFIDAVIT OF SERVICE
I, Karen R. Taylor, being eighteen years or older, do certify under penalty of
perjury that the foregoing is true and correct.

That, on this, the 15th day of

September, 2021, I filed the foregoing with the United States Supreme Court
electronically and forty (40) paper copies via UPS Ground Transportation. I further
certify that the foregoing was served via electronic mail and three (3) copies of the
same, via UPS Ground Transportation, to the following:
Kannon K. Shanmugam
Counsel Of Record
Aimee W. Brown
Maria E. Eliot
PAUL, WEISS, RIFKIND,
WHARTON &GARRISON LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com

Sudhir V. Rao
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
1285 Avenue of the Americas
New York, NY 10019
Virginia A. Seitz
Gordon D. Todd
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, DC 20005

Counsel for Petitioner

/~a~~k

Gibson Moore Appellate Services, LLC
206 East Cary Street
P.O. Box 1460 (23218)
Richmond, VA 23219
(804) 249-7770 - Telephone
karen@gibsonmoore.net

For:
James L. Shea
Steven J. Potter
Michael Redmond
Counsel of Record
Lydie E. Glynn
Matthew 0. Bradford

BALTIMORE CITY LAW DEPARTMENT

100 N. Holliday Street, Suite 101
Baltimore, MD 21202
(410) 396-7536
michael.redmond@baltimorecity.gov
Counsel for Respondent

Signed and subscribed before me on this the 15th day of September, 2021.

